                   Department of Justice
                       United States Attorney Stephen R. Wigginton
                                Southern District of Illinois

______________________________________________________________________________

FOR IMMEDIATE RELEASE                                            CONTACT: James L. Porter
THURSDAY, SEPTEMBER 27, 2012                                     PHONE: (618) 628-3700
WWW.JUSTICE.GOV/USAO/ILS/

EAST ST. LOUIS WOMAN PLEADS GUILTY TO THEFT OF GOVERNMENT FUNDS

       Stephen R. Wigginton, United States Attorney for the Southern District of Illinois, announced
today that on September 27, 2012, Lawanda Lewis, 51 of East St. Louis, Illinois, pled guilty to Theft
of Government Funds as charged in a one count indictment returned on July 17, 2012. Theft of
Government Funds carries a statutory maximum possible punishment of up to ten years in prison,
a fine of up to $250,000, a period of supervised release of up to three years, and the payment of a
$100.00 special assessment. Sentencing is scheduled for January 11, 2013, at 11:00 a.m.
       During her plea, Lewis admitted that she had fraudulently taken actions to continue receiving
her deceased mother’s social security benefits knowing that she was not entitled to receive those
funds. Lewis admitted receiving $22,758.00 in social security payments from February of 2009
through September of 2010, that were intended for her mother.
       The investigation was conducted by the Social Security Administrations Office of Inspector
General and is being prosecuted by Assistant United States Attorney Ranley R. Killian.


                                                ###
